                                                                     OIG Recovery Act Plan Overview
                                  OIG Name: U.S. Small Business Administration, Office of Inspector General


                                            The OIG has developed oversight plans for deploying additional resources to provide “real‐time” monitoring, evaluation, and reporting of SBA’s 
                                            implementation of the Act.  Since the Act provides very short time frames for obligating funds, there will be significant pressure on SBA to expedite and 
              OIG Broad Recovery Act Goals: maximize financial assistance to small businesses.  Past experience, such as SBA’s response to the 9‐11 terrorist attacks and the 2005 Gulf Coast hurricanes, 
                                            has shown that this pressure can significantly increase the vulnerability of SBA’s programs to fraud and unnecessary losses.  Therefore, the OIG’s oversight 
                                            efforts will focus heavily on assessing controls and detecting and deterring fraud, waste and abuse in Recovery Act programs.
                                          The OIG will conduct outreach efforts to raise fraud awareness and engage industry trade groups.  Outreach efforts will focus on providing SBA lenders and 
                                          employees with information on detecting fraud patterns that have been identified in OIG loan fraud investigations through written guidance, website 
   OIG Broad Outreach Recovery Act Goals:
                                          information, and presentations at trade group events, as well as notifying the public of scams.  Additionally, the OIG will be posting the results of audits and 
                                          other reviews on its Recovery Act website.
                                           The OIG is taking a number of actions to alert Agency managers of risks and recommend cost effective controls to help prevent fraud, waste, and abuse, and 
                                           ensure program goals are achieved and stimulus funds are accurately tracked and reported.  We are reviewing Agency regulations and procedures as they are 
 OIG Recovery Act Risk Assessment Process:
                                           developed for new programs and modifications to existing programs under the Recovery Act.  As we identify risks, we have and will continue to provide 
                                           Agency managers with comments and recommendations for ways to mitigate these risks.


                    OIG Recovery Act Funds: $10,000,000 
 Expiration Date of OIG Recovery Act Funds: September 30, 2013
      FY 2009 OIG Non‐Recovery Act Funds: $16,750,000 

Number of OIG Planned Recovery Act Hires: 5‐10

  OIG Recovery Act Funds to be Allocated to 
                                             Yes
                                 Contracts:
         Purpose of Recovery Act Contracts: Contractors will be used to assist with loan review audits and financial statement audits.
Types of Recovery Act Contracts Awarded to 
                                             Fixed price modification of the existing financial statement audit contract.
                                      Date:

Link to OIG FY 2009 Recovery Act Work Plan: www.sba.gov/ig/recovery




  Page 1 of Overview                                                                                                                                                SBA OIG Recovery Act FINAL Work Plan 052909.xls
                                                                                           OIG FY 2009 Recovery Act Work Plan

                                                                                                                                                                                                                                 Expected  Expected 
                               Agency Recovery    Type of Review  Entity Performing 
                                                                                                                                                                                                                                 Quarter in  Quarter in  Expected 
                                  Act Funds      (Administrative /         Review (OIG 
Agency    Program Area                                                                               Project Title                          Background                                          Objective                         Which  which Final  Number of 
                                 Associated     Financial, Eligibility,  Staff, Contractor, 
                                                                                                                                                                                                                                 Work will  Report will  Reports
                               w/Program Area Performance, Other)              Other)
                                                                                                                                                                                                                                   Start     be Issued


                                                                                                                       Under the Recovery Act, SBA will receive $730 
                                                                                                                       million to expand the Agency’s lending and 
                                                                                                                       investment programs and to create new ones 
                                                                                                                       that will aid small business owners and revitalize 
                                                                                                                       the secondary market for SBA‐guaranteed loans.  
                                                                                                                       To reduce the risks associated with the             Determine whether SBA has taken appropriate 
          Loans and Loan                                                                                               extraordinary level of Recovery Act funding,        action to address weaknesses or deficiencies 
                                                                                               Critical Unresolved 
         Guaranties, Grant                                                                                             OMB has directed agencies to address                disclosed by prior audits related to program 
                                                                                               Audit Recommendations 
           and Contract                                                                                                weaknesses or deficiencies disclosed by prior       areas funded by the Recovery Act and related 
 SBA                                                      Other              OIG Staff         in Program Areas                                                                                                                   Q2 FY 09         Q3 FY 09              1
         Administration, IT                                                                                            audits and investigations in program areas under  activities needed to safeguard funds, including: 
                                                                                               Funded by the Recovery 
           and Financial                                                                                               which Recovery Act funds are authorized.   To       Credit programs; Grant and contract 
                                                                                               Act
           Management                                                                                                  assist SBA in this effort, the OIG has identified   administration; and Information technology and 
                                                                                                                       unresolved audit recommendations from               financial management
                                                                                                                       previous reports that address weaknesses or 
                                                                                                                       deficiencies in (1) programs directly impacted by 
                                                                                                                       the Recovery Act, and (2) operational support 
                                                                                                                       processes that will impact the disbursement and 
                                                                                                                       financial reporting of Recovery Act funds.


                                                                                                                       Under OMB's Recovery Act guidance, agencies  (1) Identify strategies to prevent or timely detect 
                                                                                               OIG Consultation with  are directed to consult with OIGs in order to help  waste, fraud or abuse.  (2) Evaluate and 
                                                                                               the Agency on Recovery  mitigate the implementation risks of the           comment on SBA's program plans, regulations, 
            Program                                  Administrative/ 
 SBA                                                                         OIG Staff         Act Program Plans and  Recovery Act, enhance performance                   and procedures for new programs created by the  Q2 FY 09                    N/A                0
          Administration                               Financial
                                                                                               Implementing Rules and  management and accountability, and define          Recovery Act, as well as modifications to existing 
                                                                                               Guidance                strategies to prevent or timely detect waste,      programs.  (3) Evaluate whether program 
                                                                                                                       fraud or abuse.                                    outputs and outcomes are clear and measurable.

                                                                                                                                                                            (1) Determine whether SBA has created a portal 
                                                                                                                                                                            where the public can find and analyze 
                                                                                                                      OMB has developed a series of public reporting 
                                                                                                                                                                            information and report potential fraud, waste 
                                                                                                                      requirements for agencies receiving funding 
                                                                                               SBA's Compliance with                                                        and abuse pertaining to the Recovery Act.  (2) 
            Program                                  Administrative/                                                  under the Recovery Act.  Accurate and reliable 
 SBA                                                                         OIG Staff         Public Reporting                                                             Determine whether SBA is timely submitting            Q2 FY 09            N/A                0
          Administration                               Financial                                                      data will be necessary for SBA to achieve the 
                                                                                               Requirements                                                                 weekly and monthly financial reports to OMB 
                                                                                                                      level of transparency expected under the 
                                                                                                                                                                            that fulfill OMB reporting requirements.  (3) 
                                                                                                                      Recovery Act.
                                                                                                                                                                            Assess data quality controls to ensure reporting 
                                                                                                                                                                            is complete and accurate.

                                                                                                                         SBA's Office of Business Operations (OBO) is 
                                                                                                                         responsible for planning, executing, and 
                                                                                                                         supporting the Agency's procurement activities. 
                                                                                               Office of Business                                                             Evaluate whether OBO's contracting personnel 
                                                                                                                         Prior to the Recovery Act, OIG initiated an audit 
                                                                                               Operations Contracting                                                         are adequately trained, certified, and equipped 
 SBA       Procurement                                    Other              OIG Staff                                   of contracting personnel qualifications and                                                              Q2 FY 09         Q3 FY 09              1
                                                                                               Personnel Qualifications                                                       to meet the Agency's needs for awarding and 
                                                                                                                         warrant authority in OBO.  This audit is relevant 
                                                                                               and Warrant Authority                                                          administering contracts under the Recovery Act.
                                                                                                                         to the Recovery Act as SBA is expected to initiate 
                                                                                                                         an additional $20 million in contract activity with 
                                                                                                                         Recovery Act funds.




 Page 1 of Work Plan                                                                                                                                                                                                        SBA OIG Recovery Act FINAL Work Plan 052909.xlsx
                                                                                    OIG FY 2009 Recovery Act Work Plan

                                                                                                            Under OMB's Recovery Act guidance, agencies 
                                                                                                            are required to perform a risk analysis of 
                                                                                    Evaluation of           Recovery Act programs and request OMB to               Determine whether SBA has performed a risk 
          504 Program, 
                                                     Administrative/                Applicability of the    designate any high‐risk programs as Single Audit       analysis of the 504 and microloan programs in 
SBA        Microloan                                                    OIG Staff                                                                                                                                     Q2 FY 09            N/A                0
                                                       Financial                    Single Audit Act to     major programs.  SBA had received a prior              deciding whether these programs should be 
            Program
                                                                                    Microloans and CDCs     exclusion for CDCs and needs to determine the          designated as Single Audit major programs.
                                                                                                            applicability of Single Audits given the provisions 
                                                                                                            of the Recovery Act.
                                                                                                            In order to implement sound program 
                                                                                                            management principles, OMB has required 
                                                                                                            agencies receiving Recovery Act funds to develop  (1) Assess whether the Agency has developed an 
                                                                                                            formal documented plans for how the funds will  agency wide plan, as well as plans for each 
           Program                                   Administrative/                Assessment of Agency    be applied and managed.  OMB's guidance           program named in the Recovery Act.  (2) 
SBA                                                                     OIG Staff                                                                                                                                     Q3 FY 09            N/A                0
         Administration                                Financial                    Recovery Act Plans      requires program‐specific plans to include        Determine whether the recovery plans include 
                                                                                                            project objectives, planned activities,           all of the reporting elements specified by OMB 
                                                                                                            implementation timelines, measures for            guidelines.
                                                                                                            monitoring and evaluating programs, as well as 
                                                                                                            additional details.
                                                                                                                                                               Evaluate whether SBA's risk mitigation plans 
                                                                                                            OMB's Recovery Act guidance requires agencies 
                                                                                                                                                               appropriately identify and address all risk areas 
                                                                                                            to capture and report against government‐wide 
                                                                                                                                                               required by OMB for each of the following 
                                                                                                            accountability measures, identify agency‐specific 
                                                                                                                                                               programs: Eliminating/reducing fees on SBA 
                                                                                                            risks, prioritize risk areas, and initiate risk 
                                                                                                                                                               loans (§ 501); Increasing the SBA guaranty share 
                                                                                                            mitigation strategies.  While risk assessments 
                                                                                                                                                               on 7(a) loans (§ 502); Secondary market guaranty 
                                                                                                            and mitigation plans are initially for internal 
           Program                                   Administrative/                Assessment of SBA's                                                        authority for 504 loans (§ 503); Refinancing debt 
SBA                                                                     OIG Staff                           agency use, OMB anticipates that the Recovery                                                         Q3 FY 09                N/A                0
         Administration                                Financial                    Risk Mitigation Plans                                                      on 504 loans (§ 504); Expanding leverage 
                                                                                                            Act Accountability and Transparency Board will 
                                                                                                                                                               capacity of Small Business Investment 
                                                                                                            initiate risk management reporting requirements 
                                                                                                                                                               Companies (§ 505); Business stabilization loan 
                                                                                                            in the future.  OIG will evaluate and provide 
                                                                                                                                                               program (§ 506); Expanding the surety bond 
                                                                                                            feedback on SBA's risk assessment and 
                                                                                                                                                               program (§ 508); Loans to secondary market 
                                                                                                            mitigation plans based on issues identified in 
                                                                                                                                                               broker‐dealers (§ 509); and Expansion of the 
                                                                                                            prior audit work.
                                                                                                                                                               microloan program.


                                                                                                           Among the objectives of the Recovery Act, are to 
                                                                                                           stimulate small business lending, increase access 
                                                                                                           to credit, and improve secondary market 
                                                                                                           liquidity.  OMB's guidance has stressed the 
                                                                                                           importance of structuring and implementing 
                                                                                                           Recovery Act programs so that they can be 
                                                                                    Quarterly Reviews of   tracked and evaluated through measurable 
                                                                                    the Recovery Act's     outcomes.  Quarterly reviews of program data  Analyze loan activity and lender participation to 
         Loans and Loan 
SBA                       $           630,000,000     Performance       OIG Staff   Impact on Increased    will allow OIG to monitor how effectively SBA’s  evaluate the effectiveness of SBA’s Recovery Act          Q3 FY 09         Q2 FY 10              4
           Guaranties
                                                                                    Lending and Secondary  programs are meeting the goals of the Recovery  programs.
                                                                                    Market Liquidity       Act.  In addition to evaluating program 
                                                                                                           performance, these reviews will allow OIG to 
                                                                                                           identify program trends as they occur, as well as 
                                                                                                           indicators of control weaknesses or fraud.  This 
                                                                                                           information will assist the Agency’s efforts to 
                                                                                                           proactively identify and minimize risks in a timely 
                                                                                                           manner.




Page 2 of Work Plan                                                                                                                                                                                             SBA OIG Recovery Act FINAL Work Plan 052909.xlsx
                                                                                          OIG FY 2009 Recovery Act Work Plan

                                                                                                                A number of audits over the last several years 
                                                                                                                have been critical of the Agency’s ability to 
                                                                                                                provide adequate oversight of lenders and              Determine whether loans were originated and 
       7(a) Program, 504                                                                                        identify lender noncompliance with SBA's rules         closed in accordance with SBA's rules and 
                                                                                          Quarterly Reviews of 
       Program, Business                                                                                        and regulations or prudent lending practices.          regulations and commercially prudent lending 
SBA                          $           630,000,000         Eligibility     Contractor   Loans Made Under the                                                                                                               Q3 FY 09         Q2 FY 10              4
       Stabilization (ARC)                                                                                      The OIG will review new loans made under the           standards, to include: 7(a) loans; 504 loans that 
                                                                                          Recovery Act
              Loans                                                                                             Recovery Act, on a "real‐time" basis in order to       include refinancing; and Business Stabilization 
                                                                                                                identify compliance issues and reduce the risk of      loans.
                                                                                                                potential improper payments by the Agency on 
                                                                                                                defaulted loans.


                                                                                                                                                                     (1) Determine whether SBA has adequate 
                                                                                                                                                                     controls in place to provide reasonable 
                                                                                                                                                                     assurance that Recovery Act funds are properly 
                                                                                                                  In conjunction with the annual financial           controlled and that the Recovery Act budget 
                                                                                                                  statement audit, OIG will modify the scope of its  process is executed in accordance with Federal 
                                                                                          KPMG Audit of SBA's FY 
                                                                                                                  contract with KPMG to include additional testing  guidance.  (2) Determine whether SBA's OCFO 
           Financial                                      Administrative/                 2009 Financial                                                                                                                                                          1           
SBA                                                                          Contractor                           for Recovery Act activity.  KPMG will assess the  has established general ledger accounts to        Q3 FY 09                Q1 FY 10
          Management                                        Financial                     Statements ‐ Statement                                                                                                                                               or more
                                                                                                                  adequacy of SBA's internal controls to ensure      properly track recovery fund activity and has 
                                                                                          of Budgetary Resources
                                                                                                                  that Recovery Act funds are properly tracked,      properly accounted for fixed administrative 
                                                                                                                  controlled, and reported.                          costs.  (3) Determine whether recorded spending 
                                                                                                                                                                     authority from offsetting collections are 
                                                                                                                                                                     available for obligation and referenced to the 
                                                                                                                                                                     appropriate authorizing legislation.


                                                                                                                    In conjunction with the annual financial 
                                                                                          KPMG Audit of SBA's FY 
                                                                                                                    statement audit, OIG will modify the scope of its 
                                                                                          2009 Financial                                                               Determine whether SBA has adequate controls 
           Financial                                      Administrative/                                           contract with KPMG to include additional testing                                                                                           Included 
SBA                                                                          Contractor   Statements ‐ Credit                                                          in place over guarantee loan approvals,               Q3 FY 09         Q1 FY 10
          Management                                        Financial                                               for Recovery Act activity.  KPMG will assess the                                                                                            above
                                                                                          Receivables ‐ Loan                                                           purchases, modifications and charge‐offs.
                                                                                                                    adequacy of SBA's internal controls over the loan 
                                                                                          Guaranties
                                                                                                                    guarantee process.
                                                                                                                                                                         (1) Determine whether SBA performs internal 
                                                                                                                  In conjunction with the annual financial               control assessments to evaluate the risk of 
                                                                                                                  statement audit, OIG will modify the scope of its      waste, fraud, and/or abuse and identifies 
                                                                                          KPMG Audit of SBA's FY  contract with KPMG to include additional testing       strategies to prevent and timely detect waste, 
           Financial                                      Administrative/                 2009 Financial          for Recovery Act activity.  KPMG will assess the       fraud, and abuse in grants.  (2) Determine                                            Included 
SBA                                                                          Contractor                                                                                                                                      Q3 FY 09         Q1 FY 10
          Management                                        Financial                     Statements ‐ Grant      adequacy of SBA's internal controls in place over      whether SBA has a system of quality controls for                                       above
                                                                                          Expenses Testwork       the grant management and accounting                    accrued grant liabilities in the financial 
                                                                                                                  processes, which will include microloan program        statement footnotes.  (3) Validate the accuracy 
                                                                                                                  grants funded by the Recovery Act.                     of accrual amounts for a statistical sample of 
                                                                                                                                                                         grants.
                                                                                                                                                                         (1) Determine whether loans were originated 
                                                                                                                    The Recovery Act authorizes $6 million for direct 
                                                                                                                                                                         and closed in accordance with SBA program 
                                                                                                                    lending under SBA’s Microloan program.  A 
                                                                                                                                                                         policies and procedures.  (2) Determine whether 
                                                                                                                    previous OIG report identified significant internal 
                                                                                          Audit of SBA's Microloan                                                       intermediaries provided management, 
                                                                                                                    control weaknesses in the administration of the 
SBA        Microloans        $               6,000,000     Performance       OIG Staff    Program Expansion                                                              marketing, and technical assistance in              Q3 FY 09         Q1 FY 10              1
                                                                                                                    Microloan program.  The OIG will evaluate 
                                                                                          Under the Recovery Act                                                         accordance with SBA requirements.  (3) 
                                                                                                                    program activities under the Agency's new 
                                                                                                                                                                         Determine whether SBA has taken effective risk 
                                                                                                                    program policy, which is currently in 
                                                                                                                                                                         mitigation actions to minimize unnecessary 
                                                                                                                    development, to determine their effectiveness..  
                                                                                                                                                                         program losses.




Page 3 of Work Plan                                                                                                                                                                                                    SBA OIG Recovery Act FINAL Work Plan 052909.xlsx
                                                                                      OIG FY 2009 Recovery Act Work Plan

                                                                                                                                                                   (1) Determine whether SBA officials are 
                                                                                                               The Recovery Act authorizes $24 million for         awarding and administering grants for technical 
                                                                                                               marketing, management, and technical                assistance in a manner that will result in 
                                                                                                               assistance activities under SBA’s Microloan         meaningful and measurable outcomes.  (2) 
                                                                                      Audit of Grants for 
                                                       Administrative/                                         program.  SBA makes grants to nonprofit             Evaluate adequacy of safeguards to ensure that 
SBA        Microloans      $             24,000,000                       OIG Staff   Technical Assistance in                                                                                                       Q4 FY 09             Q2 FY 10              1
                                                         Financial                                             community‐based lenders ("intermediaries"),         funds are used for their intended purpose.  (3) 
                                                                                      the Microloan Program
                                                                                                               who make loans under the program, to provide        Assess the timeliness of awards and whether SBA 
                                                                                                               business based training and technical assistance    has initiated additional oversight to mitigate 
                                                                                                               to its microborrowers.                              additional risks associated with the Recovery 
                                                                                                                                                                   Act.


                                                                                                               Under OMB's Recovery Act guidance, agencies 
                                                                                                               are required to take steps, beyond standard 
                                                                                                               practice, to initiate additional oversight 
                                                                                                               mechanisms for programs funded by the 
                                                                                      SBA's Response to the    Recovery Act.  At a minimum, agencies are to        (1) Assess actions taken by SBA to increase 
           Program                                     Administrative/                Increased Oversight      evaluate and demonstrate the effectiveness of       oversight of programs created or modified by 
SBA                                                                       OIG Staff                                                                                                                                     Q4 FY 09         Q2 FY 10              1
         Administration                                  Financial                    Requirements of the      standard monitoring and oversight practices.        the Recovery Act.  (2) Determine the adequacy 
                                                                                      Recovery Act             Agencies are required to enhance performance        of onsite lender and CDC reviews.
                                                                                                               management and accountability processes, as 
                                                                                                               well as implement appropriate internal controls 
                                                                                                               assessments to define strategies to prevent or 
                                                                                                               timely detect waste, fraud or abuse.

                                                                                                               Under the Recovery Act, SBA will receive $20 
                                                                                                               million to improve, streamline, and automate        (1) Determine whether proper acquisition, 
                                                                                      SBA Controls Over $20  information technology systems related to             planning, and oversight controls have been 
                                                       Administrative/ 
SBA         Contracts      $             20,000,000                       OIG Staff   Million in IT Contracts  lender processes and lender oversight.              deployed.  (2) Determine whether proper              Q4 FY 09         Q3 FY 10              1
                                                         Financial
                                                                                      under the Recovery Act According to the Agency's expenditure plans,          reporting of solicitation and contract awards has 
                                                                                                               SBA will primarily utilize contractors to           occurred.
                                                                                                               implement these changes.

                                                                                                              Under OMB's Recovery Act guidance, agencies 
                                                                                                              are to provide maximum opportunities for small 
                                                                                                              businesses to compete and participate as prime 
                                                                                                              and subcontractors in contracts awarded by 
                                                                                                              agencies, while ensuring that the government  (1) Determine whether SBA has awarded 
                                                                                                              procures services at fair market prices.          contracts under the Recovery Act in a manner 
                                                                                                              Additionally, using other than fixed‐price        that maximizes opportunities for small 
                                                                                      Award and 
                                                                                                              contracts requires agencies to pay special        businesses to compete and that maximizes 
                                                       Administrative/                Administration of 
SBA         Contracts                                                     OIG Staff                           attention to ensuring that sufficient qualified   competition.  (2) Evaluate whether Recovery Act         Q4 FY 09         Q2 FY 10              1
                                                         Financial                    Recovery Act Oversight 
                                                                                                              acquisition personnel are available to perform  contracts are being administered in a way that 
                                                                                      Contracts
                                                                                                              contract administration to mitigate the           mitigates cost, schedule, and performance risks 
                                                                                                              government’s risk. When riskier contract types  and delivers meaningful and measurable 
                                                                                                              are proposed, agencies should provide             outcomes.
                                                                                                              appropriate oversight so that all alternatives 
                                                                                                              have been considered and that qualified staff is 
                                                                                                              available for monitoring performance to mitigate 
                                                                                                              risks.




Page 4 of Work Plan                                                                                                                                                                                               SBA OIG Recovery Act FINAL Work Plan 052909.xlsx
                                                                                          OIG FY 2009 Recovery Act Work Plan

                                                                                                                     SBA's 504 loan program currently results in the 
                                                                                                                     creation of unguaranteed first mortgages made 
                                                                                                                     by private sector lenders to small businesses.  
                                                                                                                     The Recovery Act granted SBA the authority to  (1) Determine whether SBA has established an 
                                                                                                                     establish a secondary market guaranty authority,  adequate process for evaluating applications for 
                                                                                                                     to provide a Federal guaranty for pools of these  guaranties on pools of 504 first lien loans.  (2) 
                                                                                            Periodic Reviews of the  loans that are to be sold to third‐party investors.   Determine whether SBA’s guaranties were 
                                                                                            Use of SBA's Secondary  The authority is designed to create more               properly applied to 504 loans and the pools of                                         1           
    SBA        504 Program                              Performance           OIG Staff                                                                                                                                      Q4 FY 09         Q2 FY 11
                                                                                            Market Authority on 504  attractive mortgage pools for secondary market  guaranteed loans were sold to third party                                                 or more
                                                                                            Loans                    buyers, which will improve liquidity and allow        investors.  (3) Determine whether SBA’s 
                                                                                                                     lenders to provide more 504 loans.  According to  guaranties were properly applied to 504 loans 
                                                                                                                     SBA, this program will service as a backstop that  and the pools of guaranteed loans were sold to 
                                                                                                                     will only be used if other programs initiated by  third party investors.
                                                                                                                     the U.S. Treasury (TARP and TALF) are not 
                                                                                                                     successful in returning liquidity to the secondary 
                                                                                                                     market.


                                                                                                                     In order to provide unprecedented levels of 
                                                                                                                     transparency and accountability, the Recovery 
                                                                                                                     Act and OMB guidance require increased 
                                                                                            Semi‐annual Reviews of  financial reporting on, and oversight of, 
                                                                                            Agency Progress and      programs, grants, and projects funded under the  (1) Determine whether SBA is making sufficient 
    SBA      Implementation                                Other              OIG Staff     Issues Surrounding SBA's Act to deter and detect fraud, waste and abuse,  progress in implementing the Recovery Act .  (2)       Q4 FY 09         Q4 FY 10              2
                                                                                            Implementation of the  and ensure that program goals are met.  As part  Assess the risk impact of any delays.
                                                                                            Recovery Act             of the OIG's increased oversight activities, we 
                                                                                                                     will be assessing the Agency's progress and the 
                                                                                                                     risks created by any delays in program 
                                                                                                                     implementation.


Type of Reviews
Administrative/Financial Reviews ‐ reviews of management administrative issues, management internal controls, or financial systems/processes
Eligibility Reviews ‐ reviews to determine if eligibility requirements were met for a given program
Performance Reviews ‐ reviews to determine the effectiveness of a given program
Other Reviews ‐ reviews that do not fit within the above categories




    Page 5 of Work Plan                                                                                                                                                                                                SBA OIG Recovery Act FINAL Work Plan 052909.xlsx
